Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




COMPARISON OF AVERAGE SALES
    PRICES AND AVERAGE
   MANUFACTURER PRICES:
    AN OVERVIEW OF 2009




                    Daniel R. Levinson
                     Inspector General

                       April 2011
                     OEI-03-10-00380
           E X E C U T I V E                              S U M M A R Y


                    OBJECTIVES
                    1. To identify drugs with average sales prices (ASP) that exceeded
                       average manufacturer prices (AMP) by at least 5 percent in any
                       quarter of 2009.
                    2. To examine the impact of missing and unavailable AMP data on the
                       Office of Inspector General’s (OIG) pricing comparisons in 2009.


                    BACKGROUND
                    By law, OIG must compare ASPs with AMPs. As generally defined in
                    statute, an ASP is a manufacturer’s sales of a drug to all purchasers in
                    the United States in a calendar quarter divided by the total number of
                    units of the drug sold by the manufacturer in that same quarter, net of
                    any price concessions. Generally, manufacturers must provide the
                    Centers for Medicare & Medicaid Services (CMS) with the ASP for each
                    of their national drug codes (NDC) on a quarterly basis. For most Part
                    B prescription drug Healthcare Common Procedure Coding System
                    (HCPCS) codes, the Medicare reimbursement is equal to 106 percent of
                    the volume-weighted ASPs for the associated NDCs.
                    During 2009, the AMP was generally defined as the average price paid
                    to the manufacturer for the drug in the United States by wholesalers for
                    drugs distributed to the retail pharmacy class of trade. Manufacturers
                    that participate in the Medicaid drug rebate program must provide
                    CMS with the AMP for each of their NDCs on a quarterly basis, with
                    certain exceptions.
                    If OIG finds that the ASP for a HCPCS code exceeds the AMP by a
                    certain percentage (5 percent through 2011), the Secretary of Health &
                    Human Services (the Secretary) may disregard the ASP for the drug
                    when setting reimbursement and shall substitute the payment amount
                    with the lesser of either the widely available market price or
                    103 percent of the AMP. In July 2010, CMS published a proposed rule
                    that, among other things, specified the circumstances under which
                    AMP-based price substitutions would occur. Generally, CMS proposed
                    to lower reimbursement amounts only for HCPCS codes with complete
                    AMP data that exceed the 5-percent threshold in two consecutive or
                    three of four quarters. However, the agency has opted not to finalize
                    the price substitution policy from the proposed rule, thereby suspending
                    any plans to lower reimbursement amounts based on the results of
                    OIG’s pricing comparisons.

OEI-03-10-00380     C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   i
    E   X   E C   U T   I     V      E            S     U M         M   A   R Y


                            To date, OIG has issued 19 reports comparing ASPs with AMPs. This
                            current overview examines data across all four quarters of 2009. To
                            identify HCPCS codes that exceeded the 5-percent threshold at least
                            once during the year based on either complete or partial AMP data, we
                            merged the results of our pricing comparisons for each quarter of 2009.
                            To determine whether missing or unavailable AMPs unduly influenced
                            the results of our pricing comparisons, we reanalyzed pricing data for
                            HCPCS codes with partial AMP data after accounting for the missing
                            values. We also identified the number of HCPCS codes that were
                            removed from OIG’s pricing comparisons because they did not have
                            AMP data in 2009.


                            FINDINGS
                            In 2009, 34 HCPCS codes with complete AMP data exceeded the
                            5-percent threshold in one or more quarters. If reimbursement
                            amounts for all 34 codes with complete AMP data had been lowered to
                            103 percent of the AMPs during the applicable quarters, we estimate that
                            Medicare expenditures would have been reduced by $4.4 million between
                            the third quarter of 2009 and the second quarter of 2010.
                            Of the 34 HCPCS codes, 11 would have been eligible for price reduction
                            under CMS’s proposed price substitution policy. If reimbursement
                            amounts for these 11 HCPCS codes had been substituted during the
                            applicable quarters, we estimate that Medicare expenditures would have
                            been reduced by $1.9 million over four quarters.
                            In 2009, 34 HCPCS codes with partial AMP data exceeded the
                            5-percent threshold in one or more quarters. When we accounted for
                            missing and unavailable AMPs, 13 of the 34 HCPCS codes continued to
                            exceed the threshold in at least one quarter of 2009, suggesting that the
                            pricing comparisons for these codes were accurately capturing underlying
                            market trends even though AMP data were not available for the full set of
                            NDCs. Because missing and unavailable AMP data had seemingly little
                            influence on the pricing comparison results for these 13 HCPCS codes,
                            price substitutions may be legitimately warranted in these cases.
                            For the remaining 21 of 34 HCPCS codes, ASPs no longer exceeded
                            the AMPs in any quarter, indicating that these codes initially
                            exceeded the threshold because of missing AMP data rather than a
                            genuine pricing disparity between the ASPs and AMPs.




OEI-03-10-00380             C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   ii
    E   X   E C   U T   I     V      E            S     U M         M   A   R Y


                            Because of NDCs without AMP data, the number of pricing
                            comparisons performed in 2009 was reduced by at least
                            10 percent in each quarter. In total, 89 HCPCS codes were excluded
                            from OIG’s pricing comparisons in one or more quarters of 2009 because
                            none of the associated NDCs had AMP data. For 46 of the 89 codes, we
                            were unable to perform any pricing comparisons in 2009 because of NDCs
                            without AMP data. Over 70 percent of these HCPCS codes (33 of 46)
                            would never have been subject to our pricing comparisons because they
                            were associated exclusively with NDCs for which manufacturers were not
                            required to report AMP data.


                            RECOMMENDATIONS
                            The Social Security Act provides the Secretary authority to lower
                            reimbursement amounts for drugs with ASPs that exceed AMPs by at
                            least 5 percent. However, CMS has yet to adjust Part B reimbursement
                            amounts based on the findings of OIG’s pricing comparisons. Although
                            CMS outlined a price substitution policy in a July 2010 proposed rule,
                            the agency has opted not to finalize that policy.
                            OIG acknowledges that operational issues associated with potential
                            price substitutions may be complex and that the concerns of relevant
                            stakeholders, including beneficiaries and taxpayers, should be taken
                            into consideration. However, to ensure that Medicare and its
                            beneficiaries are paying appropriately for Part B drugs, the gap between
                            ASPs and AMPs for certain drugs should be addressed. We therefore
                            recommend that CMS:
                            Finalize the price substitution policy from the proposed rule and
                            subsequently lower Medicare reimbursement amounts for drugs that
                            exceed the 5-percent threshold.
                            Consider expanding the price substitution policy to include certain
                            HCPCS codes with partial AMP data.
                            Consider seeking a legislative change to directly require all
                            manufacturers of Part B-covered drugs to submit both ASPs and
                            AMPs.
                            Continue to evaluate and pursue appropriate actions against
                            manufacturers that fail to comply with price reporting requirements,
                            including referring to OIG manufacturers that fail to submit timely
                            ASP data.



OEI-03-10-00380             C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   iii
    E   X   E C   U T   I     V      E            S     U M         M   A   R Y




                            AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                            RESPONSE
                            Of the four recommendations included in our report, CMS concurred
                            only with the recommendation intended to ensure timely reporting of
                            pricing data. Specifically, CMS stated that it will continue referring to
                            OIG any manufacturers that repeatedly fail to submit timely and/or
                            accurate ASPs. However, CMS did not concur with OIG’s two
                            recommendations regarding the implementation of a price substitution
                            policy, nor did it concur with our recommendation concerning the
                            possible expansion of manufacturer reporting requirements for Part B
                            drugs. According to its comments, CMS will proceed cautiously with
                            respect to any future price substitution policy, particularly as it assesses
                            the impact of changes to the definition of AMP. CMS also questioned
                            whether the payoff associated with price substitution justifies the
                            resources that OIG devotes to quarterly pricing comparisons, suggesting
                            that OIG limit its efforts to a single annual report.
                            Since the ASP payment methodology took effect in January 2005, OIG
                            has fulfilled its statutory responsibility to monitor ASP-based payment
                            amounts by issuing 19 pricing comparisons identifying Part B drugs
                            that are eligible for price reduction under the law. CMS has declined to
                            take any action in response to OIG’s findings and recommendations.
                            At present, CMS’s primary obstacle to finalizing a price substitution
                            policy appears to be the uncertainty surrounding changes in the
                            definition of AMP. However, because AMPs are widely expected to
                            increase under the new rule, CMS could proceed under the assumption
                            that a drug’s ASP may actually be less likely to exceed the 5-percent
                            threshold, effectively making price substitution criteria more stringent.
                            Once a price substitution policy has been implemented, OIG’s quarterly
                            pricing comparisons would enable CMS to make timely, responsive,
                            short-term payment adjustments that prevent Medicare and its
                            beneficiaries from overspending. In fact, significant savings would have
                            accrued if CMS had taken action immediately after OIG issued its first
                            pricing comparison.
                            Until the statutory mandate is changed or CMS complies with the law
                            as written, OIG will continue to issue quarterly pricing comparisons,
                            along with annual overviews that recommend price substitutions as
                            warranted.


OEI-03-10-00380             C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009    iv
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i


         INTRODUCTION ............................................ 1


         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    In 2009, 34 HCPCS codes with complete AMP data
                    exceeded the 5-percent threshold in one or more quarters . . . . . . 11

                    In 2009, 34 HCPCS codes with partial AMP data
                    exceeded the 5-percent threshold in one or more quarters . . . . . . 12

                    Because of NDCs without AMP data, the number of pricing
                    comparisons performed in 2009 was reduced by at least
                    10 percent in each quarter. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                    Agency Comments and Office of Inspector General Response. . . . 17


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                    A: The Equation Used by the Centers for Medicare & Medicaid
                       Services To Calculate Volume-Weighted Average Sales
                       Prices On or After April 1, 2008 . . . . . . . . . . . . . . . . . . . . . . . . 20

                    B: Previous Office of Inspector General Reports Comparing
                       Average Sales Prices and Average Manufacturer Prices . . . . . 21

                    C: Detailed Methodology for Calculating Volume-Weighted
                       Average Manufacturer Prices for 2009 . . . . . . . . . . . . . . . . . . . 24

                    D: Detailed Methodology for Estimating Savings for Drug
                       Codes That Exceeded the 5-Percent Threshold in 2009. . . . . . 26

                    E: Thirty-Four Drug Codes With Complete Average
                       Manufacturer Price Data That Exceeded the 5-Percent
                       Threshold in 2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                    F: Thirty-Four Drug Codes With Partial Average
                       Manufacturer Price Data That Exceeded the 5-Percent
                       Threshold in 2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

                    G: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
           I N T R O D U C T I O N


                    OBJECTIVES
                    1. To identify drugs with average sales prices (ASP) that exceeded
                       average manufacturer prices (AMP) by at least 5 percent in any
                       quarter of 2009.
                    2. To examine the impact of missing and unavailable AMP data on the
                       Office of Inspector General’s (OIG) pricing comparisons in 2009.


                    BACKGROUND
                    The Social Security Act (the Act) mandates that OIG compare ASPs
                    with AMPs. 1 If OIG finds that the ASP for a drug exceeds the AMP by a
                    certain percentage (5 percent through 2011), the Act states that the
                    Secretary of Health and Human Services (the Secretary) may disregard
                    the ASP for the drug when setting reimbursement amounts. 2, 3 The Act
                    further states:
                               … the Inspector General shall inform the Secretary (at
                               such times as the Secretary may specify to carry out this
                               subparagraph) and the Secretary shall, effective as of the
                               next quarter, substitute for the amount of payment … the
                               lesser of (i) the widely available market price … (if any); or
                               (ii) 103 percent of the average manufacturer price…. 4
                    Medicare Part B Coverage of Prescription Drugs
                    Medicare Part B covers only a limited number of outpatient prescription
                    drugs. Covered drugs include injectable drugs administered by a
                    physician; certain self-administered drugs, such as oral anticancer
                    drugs and immunosuppressive drugs; drugs used in conjunction with
                    durable medical equipment; and some vaccines.
                    Medicare Part B Payments for Prescription Drugs
                    The Centers for Medicare & Medicaid Services (CMS) contracts with
                    private companies, known as Medicare Administrative Contractors
                    (MAC), to process and pay Medicare Part B claims, including those for
                    prescription drugs. To obtain reimbursement for covered outpatient
                    prescription drugs, physicians and suppliers submit claims to their

                    1 Section 1847A(d)(2)(B) of the Act.
                    2 Section 1847A(d)(3)(A) of the Act.
                    3 Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the

                    applicable threshold percentage in 2006 and subsequent years; however, the threshold
                    percentage has been maintained at 5 percent.
                    4 Section 1847A(d)(3)(C) of the Act.




OEI-03-10-00380     C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009                          1
    I   N T       R O   D   U      C T           I        O   N


                                MACs using Healthcare Common Procedure Coding System (HCPCS)
                                codes. CMS established the HCPCS to provide a standardized coding
                                system for describing the specific items and services provided in the
                                delivery of health care. In the case of prescription drugs, each HCPCS
                                code defines the drug name and the amount of drug represented by the
                                HCPCS code but does not specify the manufacturer or the package size.
                                Medicare and its beneficiaries spent over $11 billion for Part B drugs in
                                2009.5 Although Medicare paid for nearly 800 outpatient prescription
                                drug HCPCS codes that year, most of the spending for Part B drugs was
                                concentrated on a relatively small subset of those codes. In 2009,
                                64 HCPCS codes accounted for 90 percent of the expenditures for
                                Part B drugs, with only 13 of these codes representing the majority
                                (52 percent) of total Part B drug expenditures.
                                Reimbursement Methodology for Part B Drugs
                                Medicare Part B pays for most covered drugs using a reimbursement
                                methodology based on ASPs. 6 As defined by law, an ASP is a
                                manufacturer’s sales of a drug to all purchasers in the United States in
                                a calendar quarter divided by the total number of units of the drug sold
                                by the manufacturer in that quarter.7 The ASP is net of any price
                                concessions, such as volume discounts, prompt-pay discounts, cash
                                discounts, free goods contingent on purchase requirements,
                                chargebacks, and rebates other than those obtained through the
                                Medicaid drug rebate program. 8 Sales that are nominal in amount are
                                exempted from the ASP calculation, as are sales excluded from the
                                determination of “best price” in the Medicaid drug rebate program.9, 10
                                Manufacturers that participate in the Medicaid drug rebate program
                                must provide CMS with the ASP and volume of sales for each of their
                                national drug codes (NDC) on a quarterly basis, with submissions due

                                5 Medicare expenditures for Part B drugs in 2009 were calculated using CMS’s Part B

                                Analytics and Reports (PBAR). The PBAR data for 2009 were downloaded in March 2010.
                                6 Several Part B drugs, including certain vaccines and blood products, are not paid for

                                under the ASP methodology.
                                7 Section 1847A(c) of the Act, as added by the Medicare Prescription Drug, Improvement,

                                and Modernization Act of 2003, P.L. 108-173.
                                8 Section 1847A(c)(3) of the Act.
                                9 Section 1847A(c)(2) of the Act.
                                10 Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available
                                from the manufacturer during the rebate period to any wholesaler, retailer, provider, health
                                maintenance organization, nonprofit entity, or governmental entity within the United
                                States, with certain exceptions.



OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2009                            2
    I   N T       R O   D   U      C T           I        O   N


                                30 days after the close of each quarter. 11 An NDC is an 11-digit
                                identifier that represents a specific manufacturer, product, and package
                                size.
                                Because Medicare Part B reimbursement for outpatient drugs is based
                                on HCPCS codes rather than NDCs and more than one NDC may meet
                                the definition of a particular HCPCS code, CMS has developed a file
                                that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
                                information in this crosswalk file to calculate volume-weighted ASPs for
                                covered HCPCS codes.
                                Calculation of Volume-Weighted Average Sales Prices
                                To calculate a volume-weighted ASP, CMS uses an equation that
                                involves the following variables: the ASP for the 11-digit NDC as
                                reported by the manufacturer, the volume of sales for the NDC as
                                reported by the manufacturer, and the number of billing units in the
                                NDC as determined by CMS. 12 The amount of the drug contained in an
                                NDC may differ from the amount of the drug specified by the HCPCS
                                code that providers use to bill Medicare. Therefore, the number of
                                billing units in an NDC describes the number of HCPCS code units that
                                are in that NDC. For instance, an NDC may contain 10 milliliters of
                                Drug A, but the corresponding HCPCS code may be defined as only
                                5 milliliters of Drug A. In this case, there are two billing units in the
                                NDC. CMS calculates the number of billing units in each NDC when
                                developing its crosswalk files.
                                Under the ASP pricing methodology, the Medicare reimbursement for
                                most Part B drugs is equal to 106 percent of the volume-weighted ASP
                                for the HCPCS code. 13 However, a two-quarter lag exists between the
                                sales period for which ASPs are reported and the effective date of the
                                reimbursement amounts. For example, ASPs from the first quarter of
                                2009 were used to establish reimbursement amounts for the third
                                quarter of 2009, and ASPs from the fourth quarter of 2009 were used to
                                establish reimbursement amounts for the second quarter of 2010.




                                11 Section 1927(b)(3) of the Act.
                                12 The equation that CMS currently uses to calculate volume-weighted ASPs is described in

                                section 1847A(b)(6) of the Act. It is also provided in Appendix A.
                                13 Medicare beneficiaries are responsible for 20 percent of this amount in the form of

                                coinsurance.



OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2009                    3
    I   N T       R O   D   U      C T           I        O   N


                                The Medicaid Drug Rebate Program and Average Manufacturer Prices
                                For Federal payment to be available for covered outpatient drugs
                                provided under Medicaid, the Act mandates that drug manufacturers
                                enter into rebate agreements with the Secretary and pay quarterly
                                rebates to State Medicaid agencies. 14 Under these rebate agreements
                                and pursuant to the Act, manufacturers must provide CMS with the
                                AMPs for each of their NDCs.15 As further explained in the regulation,
                                manufacturers are required to submit AMPs within 30 days after the
                                end of each month and each quarter.16
                                During 2009, the AMP was generally defined by statute to be the
                                average price paid to the manufacturer for the drug in the United
                                States by wholesalers for drugs distributed to the retail pharmacy class
                                of trade.17, 18 The AMP is generally calculated as a weighted average of
                                prices for all of a manufacturer’s package sizes of a drug and is reported
                                for the lowest identifiable quantity of the drug (e.g., 1 milliliter,
                                one tablet, one capsule). 19
                                Penalties for Failure To Report Timely Drug Pricing Data
                                Pursuant to the Act, manufacturers that fail to provide ASP and AMP
                                by the statutory deadline may be subject to civil money penalties
                                and/or termination from the drug rebate program.20, 21 Accordingly,
                                CMS has terminated rebate agreements with a number of
                                manufacturers for failure to report AMP data and, for the purposes of
                                evaluating potential civil money penalties, has provided OIG with
                                information about manufacturers that failed to submit timely




                                14 Sections 1927(a)(1) and (b)(1) of the Act.
                                15 Section 1927(b)(3) of the Act.
                                16 42 CFR § 447.510.
                                17 Section 1927(k)(1) of the Act.
                                18 Effective October 2010, section 2503 of the Patient Protection and Affordable Care Act

                                (Affordable Care Act), P.L. 111-148, changes the definition of AMP in a way that is not
                                relevant to the findings of this report. However, it may affect pricing comparisons between
                                ASPs and AMPs for the fourth quarter of 2010 and beyond.
                                19 During 2009, 42 CFR § 447.504(i) specified that a quarterly AMP should be calculated as
                                a weighted average of monthly AMPs in the quarter.
                                20 Sections 1927(b)(3)(C)(i) and (4)(B)(i) of the Act.
                                21 The Secretary delegated to OIG the responsibility to impose civil money penalties for

                                violations of section 1927(b)(3)(C) of the Act in 59 Fed. Reg. 52967 (Oct. 20, 1994).



OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2009                       4
    I   N T       R O   D   U      C T           I        O   N


                                AMPs.22 Recently, CMS also referred a manufacturer to OIG for
                                failure to report timely ASP data. 23 In September 2010, OIG
                                announced a new enforcement initiative under which OIG would
                                begin imposing civil money penalties on manufacturers that failed to
                                report timely ASPs and/or AMPs.
                                Office of Inspector General’s Monitoring of ASPs and AMPs
                                In accordance with its statutory mandate, OIG has issued 17 quarterly
                                pricing comparisons since the ASP reimbursement methodology for Part B
                                drugs was implemented in January 2005. In addition, OIG completed two
                                annual overviews of ASPs and AMPs, which examined data across all four
                                quarters of 2007 and 2008, respectively. A list of all 19 reports is provided
                                in Appendix B.
                                Although OIG has consistently recommended that CMS develop a price
                                substitution policy and subsequently lower reimbursement for drugs
                                that exceed the 5-percent threshold, no price substitutions have been
                                made to date. In July 2010, CMS published a proposed rule that,
                                among other things, specified the circumstances under which AMP-
                                based price substitutions would occur. 24 However, the agency recently
                                announced that it will not finalize the price substitution policy from the
                                proposed rule, thereby suspending any plans to lower reimbursement
                                amounts based on the results of OIG’s pricing comparisons. 25
                                CMS’s price substitution policy in the July 2010 proposed rule. Under the
                                unimplemented price substitution policy initially outlined in the
                                July 2010 proposed rule, CMS would have substituted 103 percent of
                                the AMP for the ASP-based reimbursement amount when OIG
                                identifies a HCPCS code that exceeds the 5-percent threshold in two
                                consecutive quarters or three of four quarters. Because CMS believes
                                that substituted prices based on partial AMP data may not adequately


                                22 CMS began referring noncompliant manufacturers to OIG in response to a 2005 report
                                entitled Deficiencies in the Oversight of the 340B Drug Pricing Program (OEI-05-02-00072).
                                As part of this report, OIG recommended that CMS consider referring to OIG
                                manufacturers whose pricing data submissions do not comply with reporting requirements
                                so that penalties could be imposed in appropriate cases.
                                23 In a February 2010 report entitled
                                                                   Average Sales Prices: Manufacturer Reporting and
                                CMS Oversight, OIG found that, from the first quarter of 2007 through the second quarter
                                of 2008, between 41 and 52 percent of manufacturers in each quarter provided ASPs after
                                the statutorily defined due date. In November 2010, CMS referred a manufacturer to OIG
                                for failure to comply with ASP reporting requirements.
                                24 75 Fed. Reg. 40040, 40259 (July 13, 2010).
                                25 75 Fed. Reg. 73170, 73471 (Nov. 29, 2010).




OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2009                      5
    I   N T       R O   D   U      C T           I        O   N


                                reflect market trends, the agency would have lowered reimbursement
                                amounts for HCPCS codes only if ASP and AMP comparisons were
                                based on the same set of NDCs (i.e., based on complete AMP data).
                                HCPCS codes that exceeded the 5-percent threshold based on partial
                                AMP data would not have been eligible for price substitution.
                                Price substitutions would have taken effect in the quarter after OIG
                                shared the results of its most recent pricing comparison and would
                                have remained in effect for one quarter. To prevent CMS’s proposed
                                policy from inadvertently raising the Medicare reimbursement
                                amount, a price substitution would not have been applied if the
                                substituted amount were greater than the ASP-based payment
                                amount calculated for the quarter in which the price substitution
                                would take effect. Although CMS planned to implement its price
                                substitution policy beginning in 2011, no price adjustments would
                                have occurred before a preliminary injunction issued on
                                December 19, 2007, by the U.S. District Court for the District of
                                Columbia had been vacated. 26 This injunction prohibits CMS from
                                using AMPs in a way that affects Medicaid reimbursement rates and
                                from disclosing AMPs to States and the public.
                                CMS’s price substitution policy in the November 2010 final rule. In a
                                November 2010 final rule, CMS stated that it would not finalize the
                                price substitution policy outlined in the July 2010 proposed rule.27
                                CMS cited a number of factors in making this decision, including the
                                ongoing preliminary injunction and upcoming regulations that will
                                implement section 2503 of the Affordable Care Act, which amended
                                the definition of AMP.28 According to the final rule, CMS remains
                                committed to proceeding cautiously as it continues to evaluate the
                                impact of any future policy developments in this area. About 2 weeks
                                after CMS published its final rule, the preliminary injunction was
                                vacated.


                                METHODOLOGY
                                We obtained files from CMS containing NDC-level ASP data from the
                                first through fourth quarters of 2009, which were used to establish


                                26 75 Fed. Reg. 40040, 40158 (July 13, 2010).
                                27 75 Fed. Reg. 73170, 73471 (Nov. 29, 2010).
                                28 The Affordable Care Act was enacted on March 23, 2010. Section 2503 of the Affordable

                                Care Act changes the definition of AMP, effective October 2010.



OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2009                      6
    I   N T       R O   D   U      C T           I        O   N


                                Part B drug reimbursement amounts for the third quarter of 2009
                                through the second quarter of 2010, respectively. These files also
                                include information that crosswalks NDCs to their corresponding
                                HCPCS codes. We also obtained AMP data from CMS for the first
                                through fourth quarters of 2009.29
                                Calculating Volume-Weighted ASPs and Volume-Weighted AMPs for 2009
                                As mentioned previously, Medicare does not base reimbursement for
                                covered drugs on NDCs; instead, it uses HCPCS codes. Therefore, CMS
                                uses quarterly ASP information submitted by manufacturers for each
                                NDC to calculate a volume-weighted ASP for each covered HCPCS code.
                                When calculating these volume-weighted ASPs, CMS includes only
                                NDCs with ASP submissions that are deemed valid.
                                As part of our analysis for each of the 2009 quarterly reports, we
                                calculated a volume-weighted AMP for each HCPCS code, consistent
                                with CMS’s methodology for calculating volume-weighted ASPs. To
                                ensure that the broadest range of drug codes is subject to OIG’s
                                pricing comparisons, we examined HCPCS codes with complete AMP
                                data (i.e., HCPCS codes with AMP data for every NDC that CMS used
                                in its calculation of volume-weighted ASPs), as well as HCPCS codes
                                with partial AMP data (i.e., HCPCS codes with AMP data for only
                                some of the NDCs that CMS used in its calculation of
                                volume-weighted ASPs). When calculating the volume-weighted AMP
                                for a HCPCS code with partial AMP data, we excluded any NDCs
                                without AMPs; however, we did not exclude those NDCs from the
                                corresponding volume-weighted ASP. This means that the
                                volume-weighted AMP for a HCPCS code with partial AMP data is
                                based on fewer NDCs than the volume-weighted ASP for that same
                                code. Appendix C provides a more detailed description of the methods
                                used to calculate volume-weighted AMPs for HCPCS codes using
                                complete or partial AMP data.
                                Comparing Volume-Weighted ASPs to Volume-Weighted AMPs for 2009
                                In each of our 2009 quarterly reports, we compared the
                                volume-weighted ASPs and AMPs and identified HCPCS codes with
                                ASPs that exceeded the AMPs by at least 5 percent using either


                                29 ASP and crosswalk data from the first through fourth quarters of 2009 were current as of

                                June 2009, October 2009, December 2009, and April 2010, respectively. AMP data from the
                                first through fourth quarters of 2009 were current as of May 2009, September 2009,
                                November 2009, and February 2010, respectively.



OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2009                     7
    I   N T       R O   D   U      C T           I        O   N


                                complete or partial AMP data. For those HCPCS codes that exceeded
                                the 5-percent threshold, we conducted a review of the associated NDCs
                                to verify the accuracy of the billing unit information for the quarter(s) in
                                which the threshold was exceeded. If HCPCS codes had potentially
                                inaccurate billing units, we excluded them from our findings.
                                As part of our 2009 annual overview, we merged the results of the four
                                quarterly pricing comparisons to identify HCPCS codes with ASPs that
                                exceeded AMPs by at least 5 percent in one or more quarters of 2009.
                                For each of the HCPCS codes we identified, we conducted additional
                                analyses that differed depending on whether the HCPCS code had
                                complete or partial AMP data.
                                Additional analysis of HCPCS codes with complete AMP data. For each of
                                the HCPCS codes with complete AMP data that exceeded the 5-percent
                                threshold in at least one quarter of 2009, we estimated the monetary
                                impact of lowering reimbursement to 103 percent of the AMP. 30 In our
                                separate quarterly pricing comparisons for 2009, savings estimates for
                                codes that exceeded the threshold in the first through third quarters
                                were based on CMS’s PBAR data from 2008, whereas savings estimates
                                for codes in the fourth quarter were based on PBAR data from 2009. To
                                ensure that the savings estimates were consistent and reflective of the
                                most current Medicare expenditures, we recalculated the savings
                                estimates for the codes that exceeded the threshold in one or more
                                quarters of 2009 using updated PBAR data for 2009. As a result, the
                                estimated savings presented in this annual overview may differ from
                                the savings presented in each of the separate quarterly reports
                                previously published by OIG. Appendix D provides a more detailed
                                description of the methods we used to estimate savings for HCPCS
                                codes that exceeded the 5-percent threshold using complete AMP data.
                                At the time of our analysis, CMS had yet to publish its November 2010
                                final rule stating that the proposed price substitution policy would not
                                be finalized. Because we assumed at the time that the price
                                substitution policy would likely be implemented, we examined the


                                30 Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for
                                drugs that exceed the 5-percent threshold with the lesser of the widely available market
                                price (WAMP) for the drug (if any) or 103 percent of the AMP. For the purposes of this
                                study, we used 103 percent of the AMP to estimate the impact of lowering reimbursement
                                amounts. If WAMPs had been available for these drugs and had been lower than
                                103 percent of the AMP, the savings estimate presented in this report would have been
                                greater.



OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2009                       8
    I   N T       R O   D   U      C T           I        O   N


                                potential effect of the policy as part of our annual overview. To
                                determine which HCPCS codes would have been subject to price
                                reduction if CMS’s proposed price substitution policy had been in effect
                                during 2009, we identified codes with complete AMP data that exceeded
                                the 5-percent threshold in two consecutive quarters or three of four
                                quarters in 2009. We then totaled the estimated savings for that subset
                                of codes.
                                Additional analysis of HCPCS codes with partial AMP data. For each of the
                                HCPCS codes with partial AMP data that exceeded the 5-percent
                                threshold in at least one quarter of 2009, we determined whether
                                missing or unavailable AMP unduly influenced the results of our pricing
                                comparisons. 31 As mentioned previously, the volume-weighted AMP for
                                a HCPCS code with partial AMP data is based on fewer NDCs than the
                                volume-weighted ASP for that same code. Therefore, there may be a
                                disparity between the volume-weighted ASP and AMP that would not
                                exist if AMP data were available for the full set of NDCs. In other
                                words, the volume-weighted ASP for the HCPCS code could exceed the
                                volume-weighted AMP by at least 5 percent only because AMPs for
                                certain NDCs were not represented.
                                As part of our annual overview, we identified HCPCS codes with
                                partial AMP data that exceeded the 5-percent threshold in 2009 only
                                because AMP data were missing or unavailable. To do this, we
                                reanalyzed pricing data after accounting for the missing values.
                                Specifically, we replaced each missing value with its corresponding
                                ASP and recalculated the volume-weighted AMPs using those
                                imputed prices. 32 We then compared those new volume-weighted
                                AMPs to the volume-weighted ASPs originally calculated by CMS.
                                If a HCPCS code no longer exceeded the 5-percent threshold in a
                                given quarter, we concluded that the missing or unavailable AMPs


                                31 For the purposes of this study, an AMP was considered “missing” if the manufacturer
                                had a Medicaid rebate agreement in 2009 but did not submit a price for the quarter. An
                                AMP was considered “unavailable” for an NDC if the manufacturer did not participate in
                                the Medicaid drug rebate program and was therefore not required to submit AMP data to
                                CMS. To determine whether a manufacturer participated in the Medicaid drug rebate
                                program in 2009, we consulted the list of participating drug companies posted on CMS’s
                                Web site.
                                32 Although an NDC’s ASP is not usually the same as its AMP, it is generally within about
                                5 percent of the AMP on average. Therefore, we believe that ASP acts as a reasonable
                                proxy for AMP, ensuring that the NDC is represented in both the volume-weighted ASP and
                                the volume-weighted AMP for the HCPCS code.



OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2009                       9
    I   N T       R O   D   U      C T           I        O   N


                                were likely responsible for the HCPCS code initially exceeding the
                                threshold in that quarter, as opposed to an actual disparity between
                                ASPs and AMPs in the marketplace.
                                If a HCPCS code continued to exceed the 5-percent threshold in a
                                given quarter, we concluded that missing and unavailable AMPs had
                                little impact on the results of our pricing comparison for that quarter.
                                For these cases, the HCPCS codes likely exceeded the threshold as a
                                result of actual pricing differences between ASPs and AMPs. Because
                                price substitutions for these HCPCS codes may be warranted, we
                                estimated the monetary impact of lowering reimbursement for these
                                codes to 103 percent of the new volume-weighted AMPs. We also
                                determined which of these codes exceeded the threshold in two
                                consecutive or three of four quarters in 2009 and totaled the
                                estimated savings for that subset of codes.
                                Analyzing HCPCS Codes With No AMP Data in 2009
                                In each of our pricing comparisons for 2009, we excluded HCPCS codes
                                that had missing or unavailable AMP data for all of the NDCs CMS
                                used to calculate Medicare reimbursement. To identify the total
                                number of HCPCS codes that were excluded from OIG pricing
                                comparisons in 2009, we merged the results from each of the four
                                quarterly reports. We then identified the number of HCPCS codes that
                                were never included in OIG’s pricing comparisons in 2009 because of
                                missing or unavailable AMP data.
                                Limitations
                                We did not verify the accuracy of manufacturer-reported ASP and AMP
                                data, nor did we verify the underlying methodology used by
                                manufacturers to calculate ASPs and AMPs. We also did not verify the
                                accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
                                exclude from its calculation of Part B drug reimbursement amounts.
                                Manufacturers are required to submit their quarterly ASP and AMP
                                data to CMS within 30 days after the close of the quarter. Our analyses
                                were performed on ASP and AMP data compiled by CMS soon after that
                                deadline. We did not determine whether manufacturers provided any
                                revised and/or missing data to CMS at a later date.
                                Standards
                                This study was conducted in accordance with the Quality Standards for
                                Inspection and Evaluation issued by the Council of the Inspectors
                                General on Integrity and Efficiency.


OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2009   10
 ...        FINDINGS 



              In 2009, 34 HCPCS codes with complete          Consistent with sections
         AMP data exceeded the 5-percent threshold           1847A(d)(2)(B) and 1847A(d)(3) of
                                                             the Act, OIG compared ASPs
                             in one or more quarters
                                                             with AMPs to identify instances
                      in which the ASP for a particular drug exceeded the AMP by a threshold
                      of 5 percent. Of the 493 HCPCS codes examined during 2009,
                      34 exceeded this 5"percent threshold in at least one quarter based on
                      complete AMP data only. Appendix E presents a list of the 34 HCPCS
                      codes, including the quarter(s) during which the codes exceeded the
                      5"percent threshold.
                        Pursuant to sections 1847A(d)(3) ofthe Act, the Secretary may
                        disregard the ASP for a drug that exceeds the 5"percent threshold and
                        shall substitute the payment amount with the lesser of either the
                        WAMP or 103 percent ofthe AMP. If reimbursement amounts for all
                        34 codes with complete AMP data had been lowered to 103 percent of
                        the AMPs during the applicable quarters, we estimate that Medicare
                        expenditures would have been reduced by $4.4 million between the
                        third quarter of 2009 and the second quarter of 2010. 33
                         Under CMS's proposed price substitution policy, reimbursement amounts
                        for almost one-third of the 34 HCPCS codes would have been reduced,
                         resulting in an estimated savings of almost $2 million over 1 year
                        If CMS's proposed price substitution policy had been in effect during
                        2009, reimbursement amounts for 11 ofthe 34 HCPCS codes would
                        have been reduced in at least one quarter. These 11 HCPCS codes had
                        complete AMP data and exceeded the 5"percent threshold in either two
                        consecutive quarters or three of the four quarters in 2009. If
                        reimbursement amounts for these 11 codes had been based on
                        103 percent of the AMPs during the applicable quarters, Medicare
                        expenditures would have been reduced by an estimated $1.9 million
                        between the third quarter of 2009 and the second quarter of 2010.
                        A list ofthe 11 HCPCS codes is included in Appendix E.




                         33 ASP data from the first through fourth quarters of 2009 were used to establish
                         reimbursement amounts for the third quarter of 2009 through the second quarter of 2010,
                         respectively.



OEI·03·10·00380          COMPARISON OF ASPs AND AMPs:   AN OVERVIEW OF   2009                                      11
    F   I    N    D I   N G    S



                 In 2009, 34 HCPCS codes with partial               Of the 493 HCPCS codes
            AMP data exceeded the 5-percent threshold               examined during 2009, 34 were
                                                                    eligible for price substitution in
                              in one or more quarters
                                                                    at least one quarter based on
                              partial AMP data. Thirty-two of these 34 HCPCS codes exceeded the
                              5-percent threshold in any given quarter using only partial AMP data,
                              whereas the remaining two codes exceeded the 5-percent threshold
                              based on a mix of partial and complete AMP data. Appendix F presents
                              a list of the 34 HCPCS codes, including the quarter(s) during which the
                              codes exceeded the 5-percent threshold.
                              For over one-third of the HCPCS codes (13 of 34), missing and unavailable
                              AMPs likely had little influence on the outcome of the pricing comparisons
                              When we accounted for missing and unavailable AMPs, 13 of the
                              34 HCPCS codes continued to exceed the threshold in at least one
                              quarter of 2009, suggesting that the pricing comparisons for these
                              codes were accurately capturing underlying market trends even
                              though AMP data were not available for the full set of NDCs.
                              Because missing and unavailable AMP data had seemingly little
                              influence on the pricing comparison results for these 13 HCPCS
                              codes, price substitutions may be legitimately warranted in these
                              cases. If reimbursement amounts for the 13 codes had been based on
                              103 percent of the AMPs during the applicable quarters, we estimate
                              that Medicare expenditures would have been reduced by
                              $54,000 between the third quarter of 2009 and the second quarter of
                              2010. A list of the 13 HCPCS codes is included in Appendix F.
                              For the remaining 21 of 34 HCPCS codes, ASPs no longer exceeded
                              the AMPs in any quarter, indicating that these codes initially
                              exceeded the threshold because of missing AMP data rather than a
                              genuine pricing disparity between the ASPs and AMPs.
                              Of the 13 HCPCS codes on which missing and unavailable AMPs likely had
                              little influence, 7 exceeded the 5-percent threshold in two consecutive or
                              three of the four quarters in 2009
                              ASPs for 7 of 13 HCPCS codes repeatedly exceeded the AMPs by at
                              least 5 percent. In 2009, one of these HCPCS codes exceeded the
                              5-percent threshold in every quarter. An additional three HCPCS
                              codes exceeded the 5-percent threshold in three of the four quarters.
                              If reimbursement amounts for all seven codes had been lowered to
                              103 percent of the AMPs during the applicable quarters, we estimate



OEI-03-10-00380               C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   12
    F   I   N     D I   N G    S


                              that Medicare expenditures would have been reduced by
                              $33,000 between the third quarter of 2009 and the second quarter of
                              2010.


   Because of NDCs without AMP data, the number                       If a HCPCS code had no AMPs
    of pricing comparisons performed in 2009 was                      for any of its associated NDCs,
                                                                      we could not evaluate that code
     reduced by at least 10 percent in each quarter
                                                                      pursuant to sections
                              1847A(d)(2)(B) and 1847A(d)(3) of the Act. In 2009, from 10 to
                              12 percent of HCPCS codes were excluded from OIG’s pricing
                              comparisons in each quarter because AMP data were missing or
                              unavailable for all of the associated NDCs. 34, 35 Table 1 lists the
                              number and percentage of HCPCS codes in each quarter that were
                              excluded from our analysis and specifies the number of codes that were
                              based on unavailable NDCs, missing NDCs, or a combination of both.
                              In total, 89 HCPCS codes were excluded from OIG’s pricing comparisons
                              in one or more quarters of 2009 because AMP data were missing or
                              unavailable for all of the NDCs that CMS used to calculate Medicare
                              reimbursement for that quarter. For 46 of the 89 codes, we were never
                              able to perform pricing comparisons in 2009 because AMPs were always
                              missing or unavailable for all of the associated NDCs. Over 70 percent
                              of these HCPCS codes (33 of 46) would never have been subject to our
                              pricing comparisons because they were associated exclusively with
                              NDCs for which manufacturers were not required to report AMP data.
                              In 2009, Medicare and its beneficiaries spent $100 million on these
                              33 drugs.36




                              34 Relative to the total number of HCPCS codes in each quarter with Medicare
                              reimbursement amounts based on the ASP payment methodology.
                              35 For the purposes of this study, an AMP was considered “missing” if the manufacturer
                              had a Medicaid rebate agreement in 2009 but did not submit a price for the quarter. An
                              AMP was considered “unavailable” for an NDC if the manufacturer did not participate in
                              the Medicaid drug rebate program and was therefore not required to submit AMP data.
                              36 One of the 33 HCPCS codes had no expenditures listed in the 2009 PBAR file. Therefore,

                              that code was not included in the $100 million total.



OEI-03-10-00380               C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009                     13
    F   I     N    D I      N G       S


            Table 1: HCPCS Codes That Were Excluded From 2009 Pricing Comparisons
                                                                                       Number of HCPCS Codes               Percentage of
                                                                                              Excluded Because    HCPCS Codes Excluded
                                                                                      None of the Corresponding              Because of
             Quarter in 2009                                                                NDCs Had AMP Data     NDCs Without AMP Data

             First Quarter                                                                                  61                      12%
                                  Codes with unavailable AMPs only                                          39
                                      Codes with missing AMPs only                                          17
               Codes with a mix of missing and unavailable AMPs                                              5
             Second Quarter                                                                                 51                      10%
                                  Codes with unavailable AMPs only                                          36
                                      Codes with missing AMPs only                                          11
               Codes with a mix of missing and unavailable AMPs                                              4
             Third Quarter                                                                                  66                      12%
                                  Codes with unavailable AMPs only                                          39
                                      Codes with missing AMPs only                                          21
               Codes with a mix of missing and unavailable AMPs                                              6
             Fourth Quarter                                                                                 62                      12%
                                  Codes with unavailable AMPs only                                          38
                                      Codes with missing AMPs only                                          17
               Codes with a mix of missing and unavailable AMPs                                              7
            Source: OIG analysis of ASP and AMP data from the first through fourth quarters of 2009.




OEI-03-10-00380                      C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009                          14
           R E C O M M E N D A T I O N S

                    Section 1847A(d)(3)(C) of the Act directs the Secretary to lower
                    reimbursement amounts for drugs with ASPs that exceed AMPs by at
                    least 5 percent. However, CMS has yet to adjust Part B reimbursement
                    amounts based on the findings of OIG’s pricing comparisons. Although
                    CMS outlined a price substitution policy in a July 2010 proposed rule,
                    the agency has opted not to finalize that policy. In other words, CMS
                    has suspended its plans to lower reimbursement amounts based on
                    OIG’s findings.
                    This current overview, which summarizes data across all four quarters
                    of 2009, identified 34 drug codes that exceeded the 5-percent threshold
                    using complete AMP data. If CMS’s proposed price substitution policy
                    had been in effect during 2009, reimbursement amounts for 11 of the
                    34 HCPCS codes would have been lowered to 103 percent of the AMPs,
                    thereby saving Medicare and its beneficiaries an estimated $1.9 million.
                    An additional 34 HCPCS codes exceeded the 5-percent threshold using
                    partial AMP data. We found that missing and unavailable AMPs for
                    certain codes likely had little influence on the outcome of the pricing
                    comparisons. Therefore, price substitution may be legitimately
                    warranted for those HCPCS codes.
                    Furthermore, 10 to 12 percent of HCPCS codes were excluded from
                    OIG’s pricing comparisons in each quarter of 2009 because AMPs were
                    missing or unavailable for all of the associated NDCs. Thirty-three
                    HCPCS codes were never subject to our 2009 pricing comparisons
                    because they were associated exclusively with NDCs for which
                    manufacturers were not required to report AMP data.
                    OIG acknowledges that the operational issues associated with potential
                    price substitutions may be complex and that the concerns of relevant
                    stakeholders, including beneficiaries and taxpayers, should be taken
                    into consideration. However, to ensure that Medicare and its
                    beneficiaries are paying appropriately for Part B drugs, the gap between
                    ASPs and AMPs for certain drugs should be addressed. We therefore
                    recommend that CMS:
                    Finalize the price substitution policy from the proposed rule and
                    subsequently lower Medicare reimbursement amounts for drugs that exceed
                    the 5-percent threshold
                    CMS’s proposed policy represented a positive step toward meeting
                    statutory price substitution requirements and addressing the gap
                    between ASPs and AMPs for certain Part B drugs. We recommend that
                    CMS move forward with finalizing and applying this policy.

OEI-03-10-00380     C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   15
    R   E C       O   M   M   E    N D             A T         I     O   N   S


                              Consider expanding the price substitution policy to include certain
                              HCPCS codes with partial AMP data
                              Because CMS believes that volume-weighted AMPs based on partial
                              AMP data may not adequately account for market-related drug price
                              changes and may lead to artificially low price substitutions, codes that
                              exceed the 5-percent threshold using partial AMP data would not have
                              been eligible for price reduction under CMS’s proposed price
                              substitution policy. However, for 13 HCPCS codes with partial AMP
                              data in 2009, missing and unavailable AMPs likely had little influence
                              on the outcome of the pricing comparisons. When we accounted for
                              missing AMPs, these 13 HCPCS codes continued to exceed the
                              threshold, indicating that the pricing comparisons were accurately
                              capturing underlying market trends even though AMP data were not
                              available for the full set of NDCs. Because the risk of substituting
                              ASP-based reimbursement with an artificially low volume-weighted
                              AMP is greatly diminished for these types of HCPCS codes, we suggest
                              that CMS expand any future price substitution policy to include HCPCS
                              codes identified by OIG as exceeding the threshold when missing AMPs
                              have been imputed.
                              We recognize that substituting ASP-based reimbursement amounts for
                              these particular HCPCS codes would not have resulted in substantial
                              savings between the third quarter of 2009 and the second quarter of
                              2010; however, by including in any future policy at least certain codes
                              with partial AMP data, CMS can avoid inadvertently providing drug
                              manufacturers with a disincentive to submit timely AMPs.
                              Consider seeking a legislative change to directly require all manufacturers
                              of Part B-covered drugs to submit both ASPs and AMPs
                              During 2009, between 36 and 39 HCPCS codes in each quarter could not
                              be included in OIG’s pricing comparisons because all of the associated
                              NDCs belonged to manufacturers that did not have Medicaid rebate
                              agreements and were therefore not required to provide AMP data to
                              CMS. Thirty-three of these drugs had unavailable AMP data in all four
                              quarters of 2009. Although Medicare and its beneficiaries spent
                              $100 million for these drugs during that year, payment amounts for the
                              drugs could not be monitored through pricing comparisons with AMPs.
                              To ensure that Part B reimbursement reflects market trends for all
                              covered drugs and is subject to regular price monitoring, CMS could
                              seek a legislative change requiring all manufacturers of Part B-covered
                              drugs to submit ASPs and AMPs, regardless of whether those
                              manufacturers have rebate agreements.

OEI-03-10-00380               C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   16
    R   E C       O   M   M   E    N D             A T         I     O   N   S


                              Continue to evaluate and pursue appropriate actions against manufacturers
                              that fail to comply with price reporting requirements, including referring to
                              OIG manufacturers that fail to submit timely ASP data
                              We recognize that CMS has taken steps to ensure that certain pricing
                              data are reported in a timely manner, including terminating
                              manufacturers’ rebate agreements for failure to report AMPs and
                              referring manufacturers with untimely AMPs to OIG to face possible
                              civil money penalties. Recently, CMS also referred a manufacturer to
                              OIG for failure to report timely ASP data. If manufacturers
                              repeatedly fail to report ASP data or repeatedly submit such data
                              late, those manufacturers should face possible penalties.


                              AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                              RESPONSE
                              Of the four recommendations included in our report, CMS concurred
                              only with the recommendation intended to ensure timely reporting of
                              pricing data. Specifically, CMS stated that it will continue referring to
                              OIG any manufacturers that repeatedly fail to submit timely and/or
                              accurate ASPs.
                              CMS did not concur with our recommendation regarding the possible
                              expansion of manufacturers’ reporting requirements for Part B drugs.
                              However, the Agency stated that it will continue to monitor
                              manufacturer reporting trends and their effects on current payment
                              policies.
                              CMS also did not concur with OIG’s two recommendations regarding the
                              implementation of a price substitution policy. In its comments, CMS
                              reiterated that the proposed policy had not been finalized because of
                              both the preliminary injunction and amendments to the definition of
                              AMP required by the Affordable Care Act. Although the injunction has
                              been recently vacated, CMS indicated that it will proceed cautiously
                              with respect to any future price substitution policy, particularly as it
                              assesses the impact of changes to the AMP definition.
                              In addition, CMS questioned whether the payoff associated with price
                              substitution justifies the resources that OIG devotes to quarterly pricing
                              comparisons, noting that the proposed price substitution policy would
                              have saved only about $2 million in 2009. Because the Act provides
                              discretion in determining the frequency of pricing comparisons, CMS
                              suggested that OIG limit its efforts to a single annual report and pursue
                              activities with higher potential rates of return.

OEI-03-10-00380               C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009    17
    R   E C       O   M   M   E    N D             A T         I     O   N   S


                              OIG notes that when Congress established ASP as the basis for
                              Medicare Part B drug reimbursement, it also provided a mechanism for
                              ensuring that the new reimbursement methodology did not result in
                              excessive payments. Specifically, Congress mandated that OIG monitor
                              ASPs by comparing them with AMPs and WAMPs and directed CMS to
                              lower reimbursement for certain drugs based on OIG’s findings. Since
                              the ASP payment methodology took effect in January 2005, OIG has
                              fulfilled its responsibility to monitor ASP-based payment amounts by
                              issuing 19 comparisons between ASPs and AMPs, each of which
                              identified Part B drugs that would have been eligible for price
                              reductions under the law. However, CMS has declined to take any
                              action in response to OIG’s findings and recommendations.
                              During the past six years, CMS has offered differing reasons for not
                              complying with its statutory requirement to adjust reimbursement
                              based on OIG’s studies. At present, CMS’s primary obstacle to
                              finalizing a price substitution policy appears to be the uncertainty
                              surrounding changes to the definition of AMP required by the
                              Affordable Care Act. However, the impact of these changes is not so
                              unpredictable as to warrant suspension of CMS’s plans to lower
                              reimbursement for eligible drugs. In response to a report issued by the
                              Government Accountability Office (GAO), the Department of Health &
                              Human Services acknowledged that the new AMPs, which are expected
                              to be based on higher-priced sales, are likely to be higher than the
                              AMPs calculated before October 2010. 37 This anticipated increase in
                              AMPs may lessen the likelihood that a drug’s ASP will exceed the
                              5-percent threshold, effectively making price substitution criteria more
                              stringent.
                              Furthermore, if no payoff has been realized based on OIG’s quarterly
                              studies, it is only because CMS has yet to lower Part B reimbursement
                              amounts for eligible drugs. Once a price substitution policy has been
                              implemented, quarterly pricing comparisons would enable CMS to make
                              responsive, short-term payment adjustments (as required by Federal
                              law) that prevent Medicare and its beneficiaries from overspending.
                              Such timely adjustments would not be possible with only annual OIG
                              pricing comparisons.


                              37 GAO, Medicaid Outpatient Prescription Drugs: Estimated Changes to Federal Upper
                              Limits Using the Formula under the Patient Protection and Affordable Care Act,
                              GAO-11-141R.



OEI-03-10-00380               C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009                 18
    R   E C       O   M   M   E    N D             A T         I     O   N   S


                              Finally, OIG believes that CMS’s comments regarding the $2 million in
                              savings identified in this report fail to recognize the broader impact of
                              price substitution over time. Although the savings from any single OIG
                              report may have been small relative to total expenditures for
                              Part B drugs, significant savings would have accrued had CMS taken
                              action immediately after OIG issued its first pricing comparison. In the
                              long term, savings achieved through price substitution could reduce
                              waste and conserve taxpayer funds at a time when increased focus has
                              been placed on rising health care costs and fiscal responsibility. OIG
                              remains concerned that CMS has yet to lower ASP-based payment
                              amounts as directed.
                              Until the statutory mandate is changed or CMS complies with the law
                              as written, OIG will continue to issue quarterly pricing comparisons,
                              along with annual overviews that recommend price substitutions as
                              warranted.
                              For the full text of CMS’s comments, please see Appendix G.




OEI-03-10-00380               C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   19
           A P P E N D I X                                 ~       A

                  The Equation Used by the Centers for Medicare & Medicaid Services To
                  Calculate Volume-Weighted Average Sales Prices on or After April 1, 2008
                  A volume-weighted average sales price (ASP) is calculated for the dosage amount
                  associated with the Healthcare Common Procedure Coding System (HCPCS)
                  code. In the following equation, the “number of billing units” represents the
                  number of HCPCS code doses that are contained in a national drug code (NDC).




                  Volume-Weighted ASP                               Sum of (ASP for NDC * Number of NDCs Sold)
                   for Dosage Amount  =
                     of HCPCS Code                          Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




OEI-03-10-00380            C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009                         20
           A P P E N D I X                                 ~       B

                  Previous Office of Inspector General Reports Comparing Average Sales
                  Prices and Average Manufacturer Prices


                     Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales
                      Prices to Average Manufacturer Prices, OEI-03-04-00430, April 2006


                     Comparison of Fourth-Quarter 2005 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second
                      Quarter 2006, OEI-03-06-00370, July 2006


                     Comparison of Third-Quarter 2006 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2007, OEI-03-07-00140, July 2007


                     Comparison of First-Quarter 2007 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2007, OEI-03-07-00530, September 2007


                     Comparison of Second-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                      Quarter 2007, OEI-03-08-00010, December 2007


                     Comparison of Third-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2008, OEI-03-08-00130, May 2008


                     Comparison of Fourth-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second
                      Quarter 2008, OEI-03-08-00340, August 2008


                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2007, OEI-03-08-00450, December 2008




OEI-03-10-00380            C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   21
    A   P P       E       N    D I      X           ~           B


                             Comparison of First-Quarter 2008 Average Sales Prices and Average
                              Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                              2008, OEI-03-08-00530, December 2008


                             Comparison of Second-Quarter 2008 Average Sales Prices and Average
                              Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                              Quarter 2008, OEI-03-09-00050, February 2009


                             Comparison of Third-Quarter 2008 Average Sales Prices and Average
                              Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                              2009, OEI-03-09-00150, April 2009


                             Comparison of Fourth-Quarter 2008 Average Sales Prices and Average
                              Manufacturer Prices: Impact on Medicare Reimbursement for Second
                              Quarter 2009, OEI-03-09-00340, August 2009


                             Comparison of First-Quarter 2009 Average Sales Prices and Average
                              Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                              2009, OEI-03-09-00490, August 2009


                             Comparison of Second-Quarter 2009 Average Sales Prices and Average
                              Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                              Quarter 2009, OEI-03-09-00640, January 2010


                             Comparison of Average Sales Prices and Average Manufacturer Prices: An
                              Overview of 2008, OEI-03-09-00350, February 2010


                             Comparison of Third-Quarter 2009 Average Sales Prices and Average
                              Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                              2010, OEI-03-10-00150, April 2010


                             Comparison of Fourth-Quarter 2009 Average Sales Prices and Average
                              Manufacturer Prices: Impact on Medicare Reimbursement for Second
                              Quarter 2010, OEI-03-10-00350, July 2010

OEI-03-10-00380                      C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   22
    A   P P       E       N    D I      X           ~           B


                             Comparison of First-Quarter 2010 Average Sales Prices and Average
                              Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                              2010, OEI-03-10-00440, November 2010


                             Comparison of Second-Quarter 2010 Average Sales Prices and Average
                              Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                              Quarter 2010, OEI-03-11-00030, February 2011




OEI-03-10-00380                      C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   23
    I   N T
           A RP OP DE UN C D T I I X O N~                         C

                  Detailed Methodology for Calculating Volume-Weighted Average
                  Manufacturer Prices for 2009
                          Before computing quarterly volume-weighted average manufacturer
                          prices (AMP) for 2009, it was necessary to identify the national drug
                          codes (NDC) that should be included in each quarter’s calculations. To
                          ensure that the broadest range of drug codes is subject to the Office of
                          Inspector General’s (OIG) pricing comparisons, we examined Healthcare
                          Common Procedure Coding System (HCPCS) codes with complete AMP
                          data (i.e., HCPCS codes with AMP data for every NDC that was used to
                          calculate Medicare reimbursement), as well as HCPCS codes with
                          partial AMP data (i.e., HCPCS codes with AMP data for only some of
                          the NDCs that were used to calculate Medicare reimbursement). 38
                          Calculating Converted Average Manufacturer Prices
                          An AMP is reported for the lowest identifiable quantity of the drug
                          contained in the NDC (e.g., 1 milligram, 1 milliliter, one tablet,
                          one capsule). In contrast, an ASP is reported for the entire amount of
                          the drug contained in the NDC (e.g., for 50 milliliters, for 100 tablets).
                          To ensure that AMPs would be comparable to ASPs, it was necessary to
                          convert the AMPs for each NDC in each quarter so that they
                          represented the total amount of the drug contained in that NDC.
                          To calculate “converted AMPs” for the NDCs included in each of our
                          quarterly reports, we multiplied the AMP by the total amount of the
                          drug contained in each NDC, as identified by sources such as the
                          Centers for Medicare & Medicaid Services’ crosswalk file, manufacturer
                          Web sites, Thomson Reuters’ Red Book, and the Food and Drug
                          Administration’s NDC directory.
                          For some NDCs, we could not identify the amount of the drug reflected
                          by the ASP and therefore could not calculate a converted AMP. The
                          extent to which NDCs with problematic AMP conversions affected our
                          analysis differed depending on whether the associated HCPCS code had
                          complete AMP data or partial AMP data.




                          38 We excluded NDCs without AMPs when calculating volume-weighted AMPs for HCPCS

                          codes with partial AMP data; however, the corresponding average sales prices (ASP) were
                          not excluded from the volume-weighted ASPs as determined by CMS. Volume-weighted
                          ASPs remained the same, regardless of the availability of AMP data.



OEI-03-10-00380           C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009                  24
    A   P P       E   N   D I      X           ~           C


                                HCPCS codes with complete AMP data. If a HCPCS code with complete
                                AMP data had one or more NDCs with a problematic AMP conversion,
                                we automatically excluded that HCPCS code from our pricing
                                comparison for the quarter.
                                HCPCS codes with partial AMP data. If a HCPCS code with partial AMP
                                data had one or more NDCs with a problematic AMP conversion, we did
                                not automatically exclude that HCPCS code from our pricing
                                comparison. Rather, we removed only the NDCs with problematic AMP
                                conversions. However, if all of the NDCs associated with the HCPCS
                                code had problematic AMP conversions, we dropped the HCPCS code
                                from that quarter’s analysis.
                                Calculating Volume-Weighted Average Manufacturer Prices
                                Using the remaining NDCs with successful AMP conversions, we
                                calculated a volume-weighted AMP for each of the corresponding
                                HCPCS codes, consistent with the revised methodology for calculating
                                volume-weighted ASPs.




OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   25
           A P P E N D I X                                ~       D

                  Detailed Methodology for Estimating Savings for Drug Codes That Exceeded
                  the 5-Percent Threshold in 2009
                          If the average sales price (ASP) for a Healthcare Common Procedure
                          Coding System (HCPCS) code exceeded the average manufacturer price
                          (AMP) by at least 5 percent in any quarter of 2009, we estimated the
                          savings associated with substituting the reimbursement amount for
                          that code with 103 percent of the AMP.
                          A two-quarter lag exists between the sales period for which ASPs are
                          reported and the effective date of the reimbursement amounts. As a
                          result of this lag period, estimated savings for HCPCS codes that
                          exceeded the 5-percent threshold during the first through fourth
                          quarters of 2009 were applied to the third quarter of 2009 through the
                          second quarter of 2010, respectively. We estimated savings only for the
                          time period(s) during which a HCPCS code exceeded the 5-percent
                          threshold.
                          For each of the HCPCS codes that exceeded the 5-percent threshold in a
                          given quarter of 2009, we calculated 103 percent of the volume-weighted
                          AMP and subtracted this amount from the reimbursement amount for
                          the HCPCS code, which is equal to 106 percent of the volume-weighted
                          ASP. To estimate the financial effect of lowering reimbursement for the
                          applicable quarter, we multiplied the difference by one-fourth of the
                          number of services that were allowed by Medicare for each HCPCS code
                          in 2009, as reported in the Centers for Medicare & Medicaid Services’
                          Part B Analytics and Reports (PBAR). 39




                          39 The PBAR data for 2009 were downloaded in March 2010.




OEI-03-10-00380           C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   26
           AA PP PP EE NN DD I I XX                            ~~      EE
  
                  Thirty-Four Drug Codes With Complete Average Manufacturer Price
                  Data That Exceeded the 5-Percent Threshold in 2009
                                                     Quarter(s) in Which the Codes Exceeded the 5-Percent Threshold

                   Drug                                        First                Second                  Third                Fourth
                   Code                                      Quarter                Quarter               Quarter               Quarter
                   J0210*                                                                             X                     X
                   J0270                                                        X
                   J0475*                                X                      X
                   J0476                                                                              X
                   J0735                                                        X                                           X
                   J1230                                 X
                   J1327*                                                                             X                     X
                   J1364*                                X                      X                     X
                   J1655                                 X
                   J1955                                 X
                   J2020                                                        X
                   J2597*                                X                      X                     X
                   J2675                                                                                                    X
                   J2690                                                        X
                   J2792*                                                       X                     X                     X
                   J2820                                                        X
                   J2993*                                                       X                     X
                   J3470                                 X                                            X
                   J7500*                                X                      X
                   J7606                                                                              X
                   J8515                                 X
                   J9155                                                                              X
                   J9178                                                        X
                   J9214*                                                                             X                     X
                   J9225                                 X
                   J9280                                                                                                    X
                   J9290                                                                                                    X
                   J9291                                                                                                    X
                   J9340*                                                                             X                     X
                   Q0166*                                                                             X                     X
                   Q0169                                 X
                   Q0171                                                                              X
                   Q0175                                 X
                   Q0176                                 X
                  * These codes would have exceeded the Centers for Medicare & Medicaid Services’ criteria for price substitution in at least
                  one quarter if the price substitution policy had been in effect during 2009.
                  Source: Office of Inspector General analysis of average sales price and average manufacturer price data from 2009.


OEI-03-10-00380                C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009                                       27
                 A P P E N D I X                                   ~        F

                   Thirty-Four Drug Codes With Partial Average Manufacturer Price Data
                   That Exceeded the 5-Percent Threshold in 2009
                                                       Quarter(s) in Which the Codes Exceeded the 5-Percent Threshold

                    Drug                                         First                Second                  Third                 Fourth
                    Code                                       Quarter                Quarter               Quarter                Quarter
                    90376                                                                                                      X
                    90586                                                                                                      X
                    J0170*                                 X                                                                   X
                    J0461                                                                                                      X
                             †
                    J0560*                                 X                      X                     X                      X
                    J0592                                                                                                      X
                    J1170                                                                                                      X
                    J1190                                  X                      X                     X                      X
                    J1642                                  X
                    J1885*                                                                              X
                    J1940*                                                                                                     X
                    J2175                                                                                                      X
                    J2310*                                 X                      X
                    J2360*                                                                                                     X
                    J2590*                                                        X
                    J2700                                                                               X                      X
                             †
                    J2765*                                 X                      X                     X                      X
                    J3010                                                                                                      X
                    J7506*                                 X                      X                     X
                    J7509*                                                        X                     X                      X
                    J7613                                                                               X
                    J9027                                                         X
                    J9031                                                                                                      X
                    J9100                                                                                                      X
                    J9185                                                                                                      X
                    J9250                                                                                                      X
                    J9260                                                                                                      X
                    Q0163*                                                        X                     X
                    Q0165*                                                        X
                    Q0170*                                                                              X                      X
                    Q0179                                                                                                      X
                                                                                                                      continued on next page




OEI-03-10-00380                  C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009                                          28
    A   P P       E    N    D I       X           ~              F


                      Thirty-Four Drug Codes With Partial Average Manufacturer Price Data
                      That Exceeded the 5-Percent Threshold in 2009 (Continued)
                                                         Quarter(s) in Which the Codes Exceeded the 5-Percent Threshold

                       Drug                                        First                 Second                  Third               Fourth
                       Code                                      Quarter                 Quarter               Quarter              Quarter
                       Q9965                                 X                       X                     X                    X
                       Q9966                                 X                       X                     X                    X
                       Q9967                                 X
                      * For these codes, missing average manufacturer prices (AMP) likely had little influence on the outcomes of the pricing
                      comparisons.
                      † These codes exceeded the 5-percent threshold based on complete AMPs in some quarters and partial AMPs in others.
                      Source: Office of Inspector General’s analysis of average sales price data and AMP data from 2009.




OEI-03-10-00380                    C O M PA R I S O N   OF   ASPS    AND   AMPS: AN OVERVIEW   OF   2009                                        29
            A P PEN D                       x                 G

                                                   Agency Comments




     (:"J-	         DEPARTMENT OF HEAJXH & HUMAN SERVJCES_ _ _ _ _ _ _                      :_ed_n:_:9_n:_:r_t~-:t-:-ra-re-&-M-e-di-ca~_ld_s_erv_ic_es
                                                                                            Washington, DC 20201



                  DATE: 	       FEB 0 3 2011
                  TO: 	         Daniel R. Levinson 

                                Inspector General 

                                                            /S/
                  FROM: 	       DOnalOrYr BerWiCK, rtIl>. 

                                Administrator 


                  SUBJECT: 	 Office of Inspector General Draft Report: Comparison of Average Sales Prices
                             and Average Manufacturer Prices: An Overview of2009 (OEI-03-10-00380)

                  The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                  respond to the Office oflnspector General's (OIG) draft report titled "Comparison of Average
                  Sales Prices and Average Manufacturer Prices: An Overview of 2009". This report is part of a
                  series of average sales price (ASP) and average manufacturer price (AMP) comparisons required
                  under section 1847A(d) of the Social Security Act (the Act).

                  The OIG stated two objectives for the 2009 overview: to identify drugs with an ASP that
                  exceeded AMP by at least 5-percent in any quarter of 2009, and to examine the impact of
                  missing and unavailable data on the OIG's 2009 pricing comparisons. The 2009 overview found
                  that 34 of 439 Healthcare Common Procedure Coding System (HCPCS) codes with complete
                  data (i.e., AMP data was available for all national drug codes (NDC) used in the ASP calculation
                  for a code) met the 5-percent threshold in at least one quarter. Of these 34 codes, 11 would have
                  been subject to the price substitution policy that was proposed but not finalized in the 2011
                  Physician Fee Schedule Rule and would have reduced Medicare expenditures by an estimated
                  $1.9 million over a four-quarter period. Another 34 HCPCS codes with partial data (I.e., AMP
                  data was available only for some of the NDCs used in the ASP calculation for a code) met the
                  5-percent threshold, and the OIG determined that missing data for 13 of these codes appeared to
                  have little influence on the outcome of the comparison since the available data accurately
                  captured underlying market trends. The OIG also noted that at least 10 percent of HCPCS codes
                  were excluded from the comparison each quarter due to missing or unavailable AMP data.

                  While we appreciate the OIG's continuing efforts to examine payment made under the ASP
                  methodology, we are uncertain of the payoff from quarterly reports on ASP and AMP
                  comparisons. We note that the price substitution policy in the CMS proposed rule (based on
                  OIG quarterly studies for 2009) would save roughly $2 million in Medicare allowed charges.

                   While the statute requires the OIG to conduct studies to determine the widely available market
                   price of Part B drugs, it also provides discretion in determining the frequency of the




OEI·03·10·00380                COMPARISON OF ASPs AND AMPs:       AN OVERVIEW OF 2009                                                                    30
    A   P P       E   N   D I      X           ~           G




OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   31
    A   P P       E   N   D I      X           ~           G




OEI-03-10-00380                 C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   32
           A C K N O W L E D G M E N T S

                    This report was prepared under the direction of Robert A. Vito, Regional
                    Inspector General for Evaluation and Inspections in the Philadelphia
                    regional office, and David E. Tawes, Director of the Medicare and
                    Medicaid Prescription Drug Unit.
                    Lauren McNulty served as the team leader for this study. Central office
                    staff who contributed to this report include Kevin Manley and Natasha
                    Franklin.




OEI-03-10-00380     C O M PA R I S O N   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2009   33
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
